 

WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 19-885

Jamie Swartz, et ux., y, Heartland Equine Rescue, et al.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:

 

Please enter my appearance as Counsel of Record for all respondents.

 

 

 

(Z There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Jodi Lovejoy

 

  

I certify that I am a me r ar of Supreme Court of the United States (Please explain if

your name has chan; your adrhissjon): 7
2 =
Signature : — —

ste 2/Bf202 ©

Aaron T. Craft
@ Mr. Ms. O Mrs. Miss

(Type or print) Name

 

 

 

 

 

 

 

Firm Office of the Attorney General

Address_Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone 317-232-4774

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Dale Arnett Christie Moore
Crystal G. Rowe
Chris J. Gadansky
